The Honorable Ted Stevens
Chairman, Committee on Appropriations
United States Senate
Washington, D.C. 20510-0201

Dear Mr. Chairman:

The Department of Labor (DOL), Office of Inspector General (OIG), performed an audit (OIG Report
No. 21-01-001-07-711) of DOL occupied facilities to determine whether payments to the District of
Columbia (DC) for water and sewage services are made promptly. The audit is mandated by the
recently enacted Consolidated Appropriations Act which requires a quarterly report on the efficiency of
Federal agencies in making these payments.

Since the second quarter of Fiscal Year (FY) 1990, the DC Appropriations Act of 1990 (P.L. 101-
168) has required the U.S. Department of Treasury (Treasury) to make quarterly payments to DC for
the Federal Government’s use of its water and sewer services. These payments are from a fund
administered by Treasury and funded by the General Services Administration (GSA), acting on behalf
of DOL and other “delegating” Federal agencies. These agencies pay into the Treasury fund on a
quarterly basis.

The billing and payment process is as follows: (1) once a year, DC conducts water meter readings of all
Federal owned, leased, or rented buildings, (2) each year, DC sends Treasury its estimate for water
and sewer services provided to the Federal Government, which is based on the actual costs of 3 years
prior to the current year, and (3) each quarter, Treasury pays DC and charges the Federal agencies for
their fair share of the estimate through the Online Payment and Collection System (OPAC), an inter-
federal fund transfer system for collections and disbursements. Since 1990, GSA has paid
approximately $60 million to DC on behalf of DOL and other delegating Federal agencies (see
Enclosure A).

DOL occupies the following facilities in which the DC provides services:

               Building Name/Location                          Building Classification

               Frances Perkins Building                        Government Owned/
               200 Constitution Avenue, N.W.                   Delegated

               Postal Square Building                  Leased/GSA Operated
               2 Massachusetts Avenue, N.E.
                Techworld                                        Leased/Owner Operated
                800 K Street, N.W.

                800 North Capitol Street, N.W.                   Leased/Owner Operated

                1331 F Street, N.W.                              Leased/Owner Operated

                1441 L Street, N.W                               Leased/Owner Operated

                Riddell Building                                 Leased/Owner Operated
                1730 K Street, N.W.

The Frances Perkins Building (FPB) is a GSA owned facility; all other DOL occupied facilities are
leased. Water and sewage services for the FPB are paid by GSA, while that of the DOL leased
facilities are included as a portion of the lease payments to the building owners. There is one exception,
the Postal Square building, where GSA is the facility operator and makes the water and sewage
payment. Rent and lease payments for all DOL occupied facilities (including regional facilities) are
made to GSA on a monthly basis (see Enclosure B).

We performed our fieldwork during the first quarter of FY 2000 (October 1, 2000 through December
31, 2000). Our review of the water and sewage payments covered FYs 1990 through 2000 and was
accomplished through interviews with DOL and GSA personnel, a review of related documentation,
and an analysis of applicable legislation

The audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.

Results

Our evaluation of the payments for water and sewage services for DOL leased facilities and the
Frances Perkins Building disclosed that payments, made on behalf of DOL by GSA, were made
promptly for the first quarter of FY 2000 and are in accordance with the District of Columbia
Appropriations Act, P.L.101-168, and no payments are in arrears.

If you have any questions regarding this matter, please call me at (202) 693-5100.

Sincerely,




Gordon S. Heddell
Inspector General
Enclosures




                                                                              Enclosure A


             GSA Reimbursements to the Department of Treasury for Water and
              Sewage Services for DOL and Other Delegating Federal Agencies

                                Fiscal Years 1990 through 2000


                      Fiscal Year                        Amount

                       2000                             $ 6,850,990

                       1999                               8,819,636

                       1998                               5,869,705

                       1997                               5,628,338

                       1996                               8,966,108

                       1995                               5,018,661

                       1994                               6,152,174

                       1993                               4,189,587

                       1992                               3,876,324

                                                             1
                       1991

                       1990                              2,963,971

                       Total:                         $ 58,335,494



       1
        GSA could not locate data for FY 1991.
                                                                          Enclosure B

                        DOL Rent Payments To GSA

          For the Period October 1, 1999 through December 31, 2000




    Month               Bill Number    Payment Date      Payment Amount
    October 99           99274053         10/27/99         *$16,261,719

    November 99          99305053         11/22/99            9,566,402

    December 99          99335053         12/16/99          * 2,909,669

    January 00           00001053          1/15/00            9,443,915

    February 00          00032053          2/16/00            9,596,959

    March 00             00061053          3/16/00            9,555,194
    April 00             00092053          4/15/00            9,443,717

    May 00               00122053          5/16/00            9,743,375

    June 00              00153053          6/16/00          10,044,764

    July 00              00183053          7/15/00            9,306,041

    August 00            00214053          8/15/00            9,669,171

    September 00         00245053          9/16/00            9,674,401
    October 00           00275053         10/21/00            9,317,082

    November 00          00306053         11/16/00           9,900,931

    December 00          00336053         12/16/00           9,635,159


*An error in the rent billed for October 1999 caused a $6,625,151 overpayment, which
 was corrected in the December 1999 bill.
The Honorable C. W. (Bill) Young
Chairman, Committee on Appropriations
U. S. House of Representatives
Washington, D.C. 20510-0910

Dear Mr. Chairman:

The Department of Labor (DOL), Office of Inspector General (OIG), performed an audit (OIG Report
No. 21-01-001-07-711) of DOL occupied facilities to determine whether payments to the District of
Columbia (DC) for water and sewage services are made promptly. The audit is mandated by the
recently enacted Consolidated Appropriations Act which requires a quarterly report on the efficiency of
Federal agencies in making these payments.

Since the second quarter of Fiscal Year (FY) 1990, the DC Appropriations Act of 1990 (P.L. 101-
168) has required the U.S. Department of Treasury (Treasury) to make quarterly payments to DC for
the Federal Government’s use of its water and sewer services. These payments are from a fund
administered by Treasury and funded by the General Services Administration (GSA), acting on behalf
of DOL and other “delegating” Federal agencies. These agencies pay into the Treasury fund on a
quarterly basis.

The billing and payment process is as follows: (1) once a year, DC conducts water meter readings of all
Federal owned, leased, or rented buildings, (2) each year, DC sends Treasury its estimate for water
and sewer services provided to the Federal Government, which is based on the actual costs of 3 years
prior to the current year, and (3) each quarter, Treasury pays DC and charges the Federal agencies for
their fair share of the estimate through the Online Payment and Collection System (OPAC), an inter-
federal fund transfer system for collections and disbursements. Since 1990, GSA has paid
approximately $60 million to DC on behalf of DOL and other delegating Federal agencies (see
Enclosure A).

DOL occupies the following facilities in which the DC provides services:

         Building Name/Location                        Building Classification

         Frances Perkins Building                      Government Owned/
         200 Constitution Avenue, N.W.                 Delegated

         Postal Square Building                        Leased/GSA Operated
             2 Massachusetts Avenue, N.E.

             Techworld                                   Leased/Owner Operated
             800 K Street, N.W.

             800 North Capitol Street, N.W.              Leased/Owner Operated

             1331 F Street, N.W.                         Leased/Owner Operated

             1441 L Street, N.W                                  Leased/Owner Operated

             Riddell Building                            Leased/Owner Operated
             1730 K Street, N.W.

The Frances Perkins Building (FPB) is a GSA owned facility, all other DOL occupied facilities are
leased. Water and sewage services for the FPB are paid by GSA, while that of the DOL leased
facilities are included as a portion of the lease payments to the building owners. There is one exception,
the Postal Square building, where GSA is the facility operator and makes the water and sewage
payment. Rent and lease payments for all DOL occupied facilities (including regional facilities) are
made to GSA on a monthly basis (see Enclosure B).

We performed our fieldwork during the first quarter of FY 2000 (October 1, 2000 through December
31, 2000). Our review of the water and sewage payments covered FYs 1990 through 2000 and was
accomplished through interviews with DOL and GSA personnel, a review of related documentation,
and an analysis of applicable legislation

The audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.

Results

Our evaluation of the payments for water and sewage services for DOL leased facilities and the
Frances Perkins Building disclosed that payments, made on behalf of DOL by GSA, were made
promptly for the first quarter of FY 2000 and are in accordance with the District of Columbia
Appropriations Act, P.L.101-168, and no payments are in arrears.

If you have any questions regarding this matter, please call me at (202) 693-5100.

Sincerely,




Gordon S. Heddell
Inspector General

Enclosures




                                                                               Enclosure A


              GSA Reimbursements to the Department of Treasury for Water and
               Sewage Services for DOL and Other Delegating Federal Agencies

                               Fiscal Years 1990 through 2000


             Fiscal Year                         Amount

              2000                               $ 6,850,990

              1999                                8,819,636

              1998                                5,869,705

              1997                                5,628,338

              1996                                8,966,108

              1995                                5,018,661

              1994                                6,152,174

              1993                                4,189,587

              1992                                3,876,324

                                                      2
              1991

              1990                                2,963,971



       2
        GSA could not locate data for FY 1991.
Total:   $ 58,335,494
                                                                          Enclosure B

                        DOL Rent Payments To GSA

          For the Period October 1, 1999 through December 31, 2000




    Month               Bill Number    Payment Date      Payment Amount
    October 99           99274053         10/27/99         *$16,261,719

    November 99          99305053         11/22/99            9,566,402

    December 99          99335053         12/16/99          * 2,909,669

    January 00           00001053          1/15/00            9,443,915

    February 00          00032053          2/16/00            9,596,959

    March 00             00061053          3/16/00            9,555,194
    April 00             00092053          4/15/00            9,443,717

    May 00               00122053          5/16/00            9,743,375

    June 00              00153053          6/16/00          10,044,764

    July 00              00183053          7/15/00            9,306,041

    August 00            00214053          8/15/00            9,669,171

    September 00         00245053          9/16/00            9,674,401
    October 00           00275053         10/21/00            9,317,082

    November 00          00306053         11/16/00           9,900,931

    December 00          00336053         12/16/00           9,635,159


*An error in the rent billed for October 1999 caused a $6,625,151 overpayment, which
 was corrected in the December 1999 bill.
